Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 SPECTRUM REHABILITATION, LLC,
 CLAIMED UNALLOWABLE MEDICARE
   PART B REIMBURSEMENT FOR
  OUTPATIENT THERAPY SERVICES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        June 2013
                                                      A-02-11-01044
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Spectrum Rehabilitation, LLC, improperly claimed at least $3.1 million in Medicare
 reimbursement for outpatient occupational and physical therapy services.

WHY WE DID THIS REVIEW

Medicare Part B covers outpatient therapy services. Total payments for these services have
increased annually, with the rate of growth in payments exceeding the rate of growth in numbers
of beneficiaries treated. In addition, previous Office of Inspector General work has identified
claims for outpatient therapy services that were not reasonable, medically necessary, or properly
documented.

Our objective was to determine whether outpatient therapy services provided by Spectrum
Rehabilitation, LLC (Spectrum), were paid in accordance with Medicare requirements.

BACKGROUND

Federal regulations provide for the coverage of Medicare Part B outpatient therapy services,
including occupational and physical therapy. For outpatient therapy services to be covered, they
must be medically reasonable and necessary, they must be provided in accordance with a plan of
care established by a physician or qualified therapist and periodically reviewed by a physician,
and the need for such services must be certified by a physician. Medicare Part B also covers
outpatient occupational and physical therapy services performed by or under the personal
supervision of a therapist in private practice. Federal law precludes payment to any provider of
services or other person without information necessary to determine the amount due the provider.

HOW WE CONDUCTED THIS REVIEW

Our review covered 40,129 Medicare outpatient occupational and physical therapy services,
totaling $4,125,711, provided by Spectrum during the period January 1, 2009, through
December 31, 2010. A claim consisted of all payments made for a beneficiary on the same date
of service.

WHAT WE FOUND

Spectrum claimed Medicare reimbursement for outpatient occupational and physical therapy
services that did not comply with certain Medicare requirements. Of the 100 claims in our
random sample, Spectrum properly claimed Medicare reimbursement for 17 claims. However,
Spectrum improperly claimed Medicare reimbursement for the remaining 83 claims. Of these 83
claims, 44 contained more than 1 deficiency.

These deficiencies occurred because Spectrum did not have a thorough understanding of
Medicare reimbursement requirements related to outpatient therapy services and did not have
adequate policies and procedures to ensure that it billed services that met Medicare requirements.

Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                        i
On the basis of our sample results, we estimated that Spectrum improperly received at least
$3,112,501 in Medicare reimbursement for outpatient occupational and physical therapy services
that did not comply with certain Medicare requirements.

WHAT WE RECOMMEND

We recommend that Spectrum:

        •   refund $3,112,501 to the Federal Government;

        •   strengthen its policies and procedures to ensure that outpatient therapy services are
            provided and documented in accordance with Medicare requirements; and

        •   obtain a better understanding of the Medicare reimbursement requirements related to
            outpatient therapy services, through such means as attending provider outreach and
            education seminars.

SPECTRUM COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Spectrum, through its attorneys, disagreed with our first
recommendation and agreed with our remaining recommendations. Spectrum indicated that the
issues raised in the report were documentation issues and not questions of whether services
provided were medically necessary. Spectrum provided detailed explanations as to why the
claims questioned in our report were billed and paid in accordance with Medicare reimbursement
requirements, as well as additional documentation for certain sample claims.

After reviewing Spectrum’s comments and the additional documentation, we have revised our
findings for 13 claims. Specifically, we are no longer questioning nine claims that contained
services billed under the incorrect provider number, two claims for which there was no plan of
care in the beneficiaries’ medical records, one claim for which the treatment note did not contain
the therapist’s signature or professional identification, and one claim for which the date the plan
of care was established was not recorded. We have revised the report to reflect these changes;
however, for 10 of the 13 claims for which we revised our findings, the revisions did not affect
our recommended refund amount because these claims remain unallowable for other reasons.




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                        ii
                                                    TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective .........................................................................................................................1

           Background ....................................................................................................................1
                 The Medicare Program ........................................................................................1
                 Medicare Outpatient Occupational and Physical Therapy Services ....................1
                 Spectrum Rehabilitation, LLC. ............................................................................2

           How We Conducted This Review .................................................................................2

FINDINGS ..................................................................................................................................3

           Medicare Physician Certification Requirements Not Met .........................................3

           Treatment Notes Did Not Meet Medicare Requirements ..........................................4

           Service Billed Under Incorrect Provider Number ......................................................5

           Services Not Medically Necessary ................................................................................5

           Plan Did Not Meet Medicare Requirements ...............................................................6

           Conclusion ......................................................................................................................6

RECOMMENDATIONS...........................................................................................................6

SPECTRUM COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE.............................................................6

           Medicare Physician Certification Requirements Not Met .........................................7

           Services Billed Under Incorrect Provider Number ....................................................8

           Treatment Notes Did Not Meet Medicare Requirements ..........................................9

           Services Not Medically Necessary ................................................................................9

           Plan Did Not Meet Medicare Requirements ...............................................................10



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                                                      iii
APPENDIXES

        A: Audit Scope and Methodology ................................................................................11

        B: Statistical Sampling Methodology ..........................................................................13

        C: Sample Results and Estimates ................................................................................14

        D: Spectrum Comments ...............................................................................................15




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                                 iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

Medicare Part B covers outpatient therapy services. Total payments for these services have
increased annually, with the rate of growth in payments exceeding the rate of growth in numbers
of beneficiaries treated. In addition, previous Office of Inspector General work has identified
claims for outpatient therapy services that were not reasonable, medically necessary, or properly
documented.

OBJECTIVE

Our objective was to determine whether outpatient therapy services provided by Spectrum
Rehabilitation, LLC (Spectrum), were paid in accordance with Medicare requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Medicare Part B provides supplementary medical insurance for medical and other health
services, including outpatient therapy services. CMS contracts with Medicare contractors to
process and pay Part B claims.

Medicare Outpatient Occupational and Physical Therapy Services

Medicare Part B provides for the coverage of outpatient therapy services, including occupational
and physical therapy (sections 1832(a)(2)(C) and 1861(g) and (p) of the Act).

Occupational therapy services are designed to improve the ability of mentally, physically,
developmentally, or emotionally impaired patients to perform everyday tasks of living and
working, with the goal of reestablishing independent, productive, and satisfying lives. Physical
therapy services are designed to evaluate and treat disorders of the musculoskeletal system with
the goal of improving mobility, relieving pain, and restoring maximal functional independence.

For Medicare Part B to cover outpatient occupational and physical therapy services, the services
must be medically reasonable and necessary, the services must be provided in accordance with a
plan of care (plan) established by a physician or qualified therapist and periodically reviewed by
a physician, and the need for such services must be certified by a physician. 1 Further, Medicare
Part B pays for outpatient occupational and physical therapy services performed by or under the


1
    Sections 1862(a)(1)(A) and 1835(a)(2) of the Act.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                         1
personal supervision of a therapist in private practice. 2 Finally, the Act precludes payment to
any provider of services or other person without information necessary to determine the amount
due the provider. 3

These requirements are further clarified in chapter 15 of CMS’s Medicare Benefits Policy
Manual (Pub. 100-02) and in chapter 5 of its Medicare Claims Processing Manual
(Pub. 100-04).

Spectrum Rehabilitation, LLC

Spectrum is a provider of outpatient therapy services with four locations throughout southern
New Jersey. During the period January 2009 through December 2010, Spectrum employed 12 to
16 full-time therapists who provided outpatient occupational and physical therapy services to
Medicare beneficiaries.

Novitas Solutions, Inc. (Novitas), 4 serves as the Part B Medicare Administrative Contractor for
providers in Jurisdiction 12, which includes New Jersey.

HOW WE CONDUCTED THIS REVIEW

Our review covered Spectrum’s claims for Medicare outpatient occupational and physical
therapy services provided during the period January 1, 2009, through December 31, 2010. We
excluded services on seven claims, totaling $2,048, that the Medicare Administrative Contractor
had previously reviewed and questioned. Our revised sampling frame consisted of 40,129
outpatient therapy service claims, 5 totaling $4,125,711, of which we reviewed a simple random
sample of 100 claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.




2
    42 CFR §§ 410.59 and 410.60.
3
    Section 1833(e) of the Act.
4
    Formerly Highmark Medicare Services, Inc.
5
    A claim consisted of all payments made for a beneficiary on the same date of service.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                       2
                                               FINDINGS

Spectrum claimed Medicare reimbursement for outpatient occupational and physical therapy
services that did not comply with certain Medicare requirements. Of the 100 claims in our
random sample, Spectrum properly claimed Medicare reimbursement for 17 claims. However,
Spectrum improperly claimed Medicare reimbursement for the remaining 83 claims.
Specifically:

        •   For 45 claims, Medicare physician certification requirements were not met.

        •   For 36 claims, the treatment notes maintained by Spectrum did not meet Medicare
            requirements.

        •   For 35 claims, the therapist who billed Medicare did not perform or supervise the
            service.

        •   For 21 claims, the therapy services were not medically necessary.

        •   For four claims, the plan did not meet Medicare requirements.

Of the 83 claims, 44 contained more than 1 deficiency.

These deficiencies occurred because Spectrum did not have a thorough understanding of the
Medicare reimbursement requirements related to outpatient therapy services and did not have
adequate policies and procedures in place to ensure that it billed services that met certain
Medicare requirements. On the basis of our sample results, we estimated that Spectrum
improperly received at least $3,112,501 in Medicare reimbursement for outpatient occupational
and physical therapy services that did not comply with Medicare requirements.

MEDICARE PHYSICIAN CERTIFICATION REQUIREMENTS NOT MET

Payment for outpatient therapy services may be made if a physician certifies: (i) that such
services were required because the individual needed outpatient therapy, (ii) a plan for furnishing
such services has been established by a physician or by a qualified therapist and periodically
reviewed by a physician, and (iii) such services were furnished while the individual was under
the care of a physician (section 1835(a)(2)(C) of the Act).

Initial certifications must be obtained as soon as possible after the plan is established and must be
signed by a physician, nurse practitioner, clinical nurse specialist, or physician assistant who has
knowledge of the case (42 CFR §§ 424.24(c)(2) and (3)). Initial certification requirements are
satisfied by a physician or non-physician practitioner’s certification of the initial plan. For an
initial plan to be certified in a timely manner, the physician or non-physician practitioner must
certify the initial plan as soon as it is obtained or within 30 days of the initial treatment. For
recertification, the plan must be dated during the duration of the initial plan of care or within
90 calendar days of the initial treatment under that plan, whichever is less (Medicare Benefit



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                       3
Policy Manual, chapter 15, § 220.1.3.D). Physician certification is documented by a dated
signature or verbal order (Medicare Benefit Policy Manual, chapter 15 § 220.1.3.B).

For 45 claims, Spectrum received Medicare reimbursement for services that did not meet
physician certification requirements. Specifically:

        •    Services were not certified in a timely manner. For 33 claims, services were not
             certified by a physician or non-physician practitioner when obtained or within 30
             days of the first treatment (31 claims) or during the duration of the initial plan or
             within 90 days of the initial treatment under that plan (2 claims).

        •    Physician certifications of initial plans were not dated. For 11 claims, certifications
             were signed by a physician or non-physician practitioner but were not dated.

        •    Services were not certified. For one claim, services were not certified (i.e., there was
             no dated physician or non-physician signature on the plan).

TREATMENT NOTES DID NOT MEET MEDICARE REQUIREMENTS

Medicare payments should not be made without the information necessary to determine the
amount due the provider (section 1833(e) of the Act). In addition, a provider must furnish to its
Medicare Administrative Contractor sufficient information to determine whether payment is due
and the amount of payment (42 CFR § 424.5(a)(6)).

Outpatient therapy services are payable when the medical record and information on the
provider’s claim form consistently and accurately report covered services (Medicare Benefit
Policy Manual, Chapter 15, § 220.3A). In addition, providers must report the number of units
for outpatient rehabilitation services based on the procedures or services provided. For timed
procedures, units are reported in 15-minute intervals. For untimed procedures, units are reported
based on the number of times the procedure is performed (Medicare Claims Processing Manual,
chapter 5 § 20.2).

Therapists must maintain a treatment note for each treatment day and each therapy service. The
treatment note must document the: (1) date of treatment, (2) identification of each specific
service provided and billed, (3) total timed code treatment minutes and total treatment time in
minutes, and (4) signature and professional identification of the therapist who furnished or
supervised the service (Medicare Benefit Policy Manual, chapter 15 § 220.3E).

For 36 claims, Spectrum received Medicare reimbursement for services for which the treatment
note was missing or did not meet Medicare requirements. 6 Specifically:

        •    Total treatment time not documented. For 31 claims, the total treatment time in
             minutes for timed procedures was not documented in the treatment note.

6
 The total exceeds 36 because 1 claim contained services for which the total treatment time was not documented
and for which the treatment note did not support the number of units billed.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                     4
        •    No treatment note. For three claims, there was no treatment note for some services.

        •    Treatment note did not support the number of units billed. For three claims, the
             treatment note did not support the number of units billed for some services.

SERVICES BILLED UNDER INCORRECT PROVIDER NUMBER

Medicare Part B covers outpatient therapy services performed by or under the personal
supervision of a therapist in private practice (42 CFR §§ 410.59(a)(3)(ii) and 410.60(a)(3)(ii)).
Each therapist in a private practice must enroll in Medicare and obtain a provider identification
number to provide medical services to Medicare beneficiaries and to submit claims for the
services provided. If a therapist is not enrolled in Medicare, services performed by the therapist
are only eligible for Medicare reimbursement if the therapist is directly supervised by one who is
enrolled in Medicare. Direct supervision requires that the supervising private practice therapist
be present at the time the services are performed (Medicare Benefit Policy Manual, chapter 15
§ 230.4). Additionally, claims must include the provider identification number of the individual
who performed or supervised the services (Medicare Claims Processing Manual, chapter 26
§ 10.4).

For 35 claims, Spectrum received Medicare reimbursement for outpatient therapy services
provided by therapists that were not enrolled in Medicare and who did not have a provider
identification number. These services were billed to Medicare using provider identification
numbers assigned to other therapists in the practice. There was no evidence in the case records
to indicate that these services were directly supervised by a therapist who was enrolled in
Medicare.

SERVICES NOT MEDICALLY NECESSARY

The Balanced Budget Act of 1997 placed an annual cap on Medicare rehabilitation services.
Financial limits called “therapy caps” apply to outpatient Part B therapy services. 7 Exceptions to
therapy caps are authorized if services are medically necessary and identified by a “KX
modifier” on the claim. The modifier is added to a claim to indicate that the provider attests that
services are medically necessary and that justification is documented in the medical record
(Medicare Claims Processing Manual, chapter 5 §§ 10.2 and 10.3).

No payment may be made under Medicare Part A or Part B for any expenses incurred for items
or services that are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member (section 1862(a)(1)(A) of the
Act).




7
 Therapy caps were established for (1) combined physical and speech therapy services and (2) occupational therapy
services and were based on therapy services that the beneficiary received. For calendar year 2009, the therapy caps
for each were $1,840 and in calendar year 2010, $1,860.



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                      5
For 21 claims, Spectrum received Medicare reimbursement for services that exceeded the
therapy caps and for which the beneficiaries’ medical record did not support the medical
necessity of services above the therapy caps. 8

PLAN DID NOT MEET MEDICARE REQUIREMENTS

Outpatient rehabilitation services must be provided in accordance with a written plan established
before treatment begins. The plan must contain the type, amount, frequency, and duration of the
occupational or physical therapy services to be furnished and must indicate the diagnosis and
anticipated goals (42 CFR § 410.61).

For four claims, Spectrum received Medicare reimbursement for services that were not provided
in accordance with a plan that met Medicare requirements. Specifically, for these four claims,
the plan did not include the type of service provided and billed to Medicare.

CONCLUSION

On the basis of our sample results, we estimated that Spectrum improperly received at least
$3,112,501 in Medicare reimbursement for outpatient occupational and physical therapy services
that did not comply with certain Medicare requirements.

                                           RECOMMENDATIONS

We recommend that Spectrum:

           •   refund $3,112,501 to the Federal Government;

           •   strengthen its policies and procedures to ensure that outpatient therapy services are
               provided and documented in accordance with Medicare requirements; and

           •   obtain a better understanding of the Medicare reimbursement requirements related to
               outpatient therapy services, through such means as attending provider outreach and
               education seminars.

                                  SPECTRUM COMMENTS AND
                           OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Spectrum, through its attorneys, disagreed with our first
recommendation and agreed with our remaining recommendations. Spectrum indicated that the
issues raised in the report were documentation issues and not questions of whether services
provided were medically necessary. Spectrum provided detailed explanations as to why the
claims questioned in our report were billed and paid in accordance with Medicare reimbursement
requirements, as well as additional documentation for certain sample claims. Spectrum’s



8
    The medical review staff of Novitas made these medical necessity determinations.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                           6
comments appear as Appendix D. Exhibits submitted as attachments to the comments are not
included because they contain personally identifiable information.

After reviewing Spectrum’s comments and the additional documentation, we have revised our
findings for 13 claims. Specifically, we are no longer questioning nine claims that contained
services billed under the incorrect provider number, two claims for which there was no plan in
the beneficiaries’ medical records, one claim for which the treatment note did not contain the
therapist’s signature or professional identification, and one claim for which the date the plan was
established was not recorded. We have revised the report to reflect these changes; however, for
10 of the 13 claims for which we revised our findings, the revisions did not affect our
recommended refund amount because these claims remain unallowable for other reasons.

MEDICARE PHYSICIAN CERTIFICATION REQUIREMENTS NOT MET

Spectrum Comments

Spectrum stated that 42 CFR § 424.11(d)(3) 9 allows for delayed certification and recertification
statements when there is a legitimate reason. These statements must include an explanation for
the delay. Spectrum stated that it uses an aggressive process for obtaining physician
certifications within the required timeframes. Specifically, Spectrum indicated that it follows up
with providers that fail to return a signed plan by contacting providers up to four times in an
attempt to obtain a physician signature. Accordingly, Spectrum stated that its procedures for
obtaining a signed plan meet the delayed certification requirements and payment for these claims
should not be denied.

Office of Inspector General Response

We maintain that 45 claims did not meet physician certification requirements. Specifically,
delayed certification and recertification statements must include an explanation for the delay.
For all claims in question, Spectrum believed that it met delayed certification and recertification
requirements because it aggressively tried to obtain physician certifications. However, there was
no evidence in the beneficiaries’ medical records to justify delays (i.e., there was no evidence
that Spectrum contacted the providers on multiple occasions to obtain signed plans). Spectrum
acknowledged in its comments that it did not maintain evidence of its follow up attempts with
providers. Finally, as part of its comments, Spectrum attached physician affidavits that were
created 4 years after the dates of service in question; however, these affidavits did not provide
evidence that the physicians were involved in the corresponding patients’ care when the services
were provided or that delayed certification was justified.




9
 In its comments, Spectrum transposed the subsection and paragraph of this citation. We have included the correct
citation.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                        7
SERVICES BILLED UNDER INCORRECT PROVIDER NUMBER

Spectrum Comments

Spectrum acknowledged that the services in question were billed under the incorrect provider
number and conceded that some of the associated therapists did not possess a Medicare provider
number during our audit period; however, Spectrum stated that that these services should be still
payable. Specifically, Spectrum indicated that claims billed with the provider number of a
therapist enrolled in Medicare and not the one that provided the service were the result of clerical
errors. In addition, Spectrum stated that the Medicare supervision requirements were met for
some of the services in question and indicated that some therapists obtained a Medicare provider
number with a retroactive effective date that preceded the dates of service at issue. Finally,
Spectrum stated that each of its therapists are now enrolled in Medicare.

Office of Inspector General Response

We have revised our findings to remove the nine claims for which the services were provided or
supervised by a therapist who was enrolled in Medicare but billed under another therapist’s
Medicare provider identification number. However, we maintain that 35 claims with services
billed under incorrect provider numbers did not meet Medicare requirements. Specifically, each
therapist in a private practice must enroll in Medicare and obtain a provider identification
number to provide medical services to Medicare beneficiaries and to submit claims for the
services provided. If a therapist is not enrolled in Medicare, services performed by the therapist
are only eligible for Medicare reimbursement if the therapist is directly supervised by one who is
enrolled in Medicare. Direct supervision requires that the supervising private practice therapist
be present at the time the services are performed (Medicare Benefit Policy Manual, chapter 15
§ 230.4). Additionally, claims must include the provider identification number of the individual
who performed or supervised the services (Medicare Claims Processing Manual, chapter 26
§ 10.4).

For these 35 claims, the services were provided by therapists that were not enrolled in Medicare
and did not have a provider identification number. In addition, there was no evidence in the
beneficiaries’ medical records indicating the supervising therapist was present at the time the
services were performed as required. Furthermore, the therapists’ affidavits that Spectrum
attached as part of its comments were created 4 years after the dates of service in question and
did not provide contemporaneous evidence that the supervision requirements were met. Finally,
based on information provided by Spectrum during our exit conference, we did not question any
services for which the therapist obtained a Medicare provider number with a retroactive effective
date that preceded the sampled date of service.




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                       8
TREATMENT NOTES DID NOT MEET MEDICARE REQUIREMENTS

Spectrum Comments

Spectrum stated that the number of units billed for each claim for which the total treatment time
in minutes was not documented was calculated in accordance with the treatment guidelines
established in CMS manuals. Therefore, Spectrum contended that the claims at issue were
properly reimbursed. Spectrum further stated that, at a minimum, it should be reimbursed one
unit of service. For the remaining claims, Spectrum acknowledged that services not supported
by treatment notes were billed in error and that one therapist forgot to sign the treatment note.

Office of Inspector General Response

We have revised our findings to remove the one claim for which the treatment note did not
contain the signature and professional identification of the therapist that performed the service.
However, we maintain that 36 claims did not meet Medicare treatment note requirements.
Specifically, Medicare payments should not be made without the information necessary to
determine the amount due the provider (section 1833(e) of the Act). In this respect, therapists
must maintain a treatment note for each treatment day and each therapy service that contains the:
(1) date of treatment, (2) identification of each specific service provided and billed, (3) total
timed code treatment minutes and total treatment time in minutes, and (4) signature and
professional identification of the therapist who furnished or supervised the service (Medicare
Benefit Policy Manual, chapter 15 § 220.3E).

For certain claims, the treatment notes did not contain the total timed code treatment minutes or
the total treatment time in minutes as required. Without this information, we have no assurance
that the minimum time required to bill 10 one unit of service was met.

SERVICES NOT MEDICALLY NECESSARY

Spectrum Comments

Spectrum contends that the medical record for each claim denied for not being medically
necessary demonstrated the patient’s need for continued skilled therapy beyond the therapy cap
(i.e., the service was medically necessary).

Office of Inspector General Response

We maintain that 21 claims did not meet Medicare medical necessity requirements. Specifically,
the determination that Spectrum received Medicare reimbursement for services for which the
medical record did not support the medical necessity of the services above the therapy cap was
made by Novitas’ medical review staff. Novitas’ medical review staff have extensive knowledge
of the Medicare requirements related to medical necessity and, on the basis of their review of the

10
  Providers cannot bill for services performed in less than 8 minutes (Medicare Claims Processing Manual,
chapter 5 § 20.2C).



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                9
medical records, concluded that Spectrum’s documentation did not justify services above the
therapy cap.

PLAN DID NOT MEET MEDICARE REQUIREMENTS

Spectrum Comments

Spectrum acknowledged that the plan for some questioned claims did not include the type of
therapy service provided or the date the plan was established; however, Spectrum provided
reasons why it believes the services were billed in accordance with the plan in attachments to its
comments. 11 Specifically, Spectrum stated in the attachments that, for certain claims, the
therapist neglected to select any of the modalities under the section “Skilled Treatment Plan to
Address Functional Deficits” on the plan. In addition, Spectrum indicated that one plan did not
include a service because the service was only provided in limited instances. Spectrum also
stated that another plan included procedure code 97530 (therapeutic activity); therefore,
Spectrum contended that we incorrectly found that this service was not provided in accordance
with the plan. Finally, for another claim, Spectrum indicated that the therapist failed to record
the date the plan was established.

Office of Inspector General Response

We have revised our findings to remove the one claim for which the date the plan was
established was not recorded; however, we maintain that four claims contained services that were
not provided in accordance with the plan. Outpatient rehabilitation services must be provided in
accordance with a written plan established before treatment begins. The plan must contain the
type, amount, frequency, and duration of the occupational or physical therapy services to be
furnished and must indicate the diagnosis and anticipated goals (42 CFR § 410.61).

The plan that Spectrum indicated included procedure code 97530 was the plan for physical
therapy services. We did not question those services. Rather, we questioned the therapeutic
activity services provided by the occupational therapist that were not included on the associated
beneficiary’s occupational therapy plan.




11
  We did not include exhibits submitted as attachments to Spectrum’s comments in Appendix D because the
exhibits contain personally identifiable information.


Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                              10
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 40,129 Medicare outpatient occupational and physical therapy services,
totaling $4,125,711, provided by Spectrum during the period January 1, 2009, through
December 31, 2010. A claim consisted of all payments made for a beneficiary on the same date
of service. These claims were extracted from CMS’s National Claims History file.

We limited our review of internal controls to those applicable to our objective. Specifically, we
obtained an understanding of Spectrum’s policies and procedures for documenting and billing
Medicare for outpatient therapy services. Our review enabled us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

We performed fieldwork at Spectrum’s office in Northfield, New Jersey, from December 2011
through July 2012.

METHODOLOGY

To accomplish our objective, we:

        •   reviewed applicable Medicare laws, regulations, and guidance;

        •   interviewed Medicare officials to obtain an understanding of the Medicare
            requirements related to outpatient therapy services;

        •   interviewed Spectrum officials to gain an understanding of its policies and procedures
            related to providing and billing Medicare for outpatient therapy services;

        •   extracted from CMS’s National Claims History file a sampling frame of 40,136
            outpatient therapy service claims, totaling $4,127,759, for the period January 1, 2009,
            through December 31, 2010;

        •   excluded services on seven claims, totaling $2,048, that were previously reviewed
            and questioned by the Medicare Administrative Contractor;

        •   determined our revised sampling frame consisted of 40,129 outpatient therapy service
            claims totaling $4,125,711;

        •   selected a simple random sample of 100 outpatient therapy service claims from the
            sampling frame;

        •   reviewed data from CMS’s Common Working File and other available data for the
            sampled claims to determine whether the claims had been cancelled or adjusted;



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                     11
        •   obtained and reviewed case record documentation from Spectrum for each sample
            claim to determine whether the services were provided in accordance with Medicare
            requirements;

        •   utilized Novitas medical review staff to determine whether sampled claims billed
            with the KX modifier met medical necessity requirements; and

        •   estimated the unallowable Medicare reimbursement paid in the total population of
            40,129 claims.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                   12
                   APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all Medicare Part B outpatient therapy service claims paid to
Spectrum during the period January 1, 2009, through December 31, 2010.

SAMPLING FRAME

The sampling frame was an Access database containing 40,129 outpatient therapy service claims,
totaling $4,125,711, provided by Spectrum during the period January 1, 2009, through
December 31, 2010. We eliminated from the sampling frame services that were previously
reviewed and questioned by the Medicare Administrative Contractor. The claims data were
extracted from the CMS National Claims History file.

SAMPLE UNIT

The sample unit was an outpatient therapy service claim. A claim consisted of all payments
made for a beneficiary on the same date of service.

SAMPLE DESIGN

We used a simple random sample to review Medicare payments made to Spectrum for outpatient
therapy services.

SAMPLE SIZE

We selected a sample of 100 outpatient therapy service claims.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame. After generating 100
random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We estimated the total
amount of inappropriate Medicare payments for unallowable outpatient therapy services made to
Spectrum at the lower limit of the 90-percent confidence level.




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                 13
                        APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                          Sample Details and Results

                                                                        No. of       Value of
       Claims in           Value of         Sample      Value of      Unallowable   Unallowable
        Frame               Frame            Size       Sample          Claims        Claims
        40,129            $4,125,711          100       $10,124           83           $8,432


                             Estimated Value of Unallowable Claims
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                Point Estimate              $3,383,697
                                 Lower Limit                $3,112,501
                                 Upper Limit                $3,654,894




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                      14
                                        APPENDIX D: SPECTRUM COMMENTS 





                                                           LAW    O~FICES


                                               WAC HL ER        &      ASSOC I A T ES
                                                    PROF"f:SSIONAI..   CO!'tPORA TI ON
             ANDREW B. WACHLER
             AMY K . F"EHN   *                    210 EAST THIRD STRE E T, SUITE 204
             JENNIFER COLAG I OVANNI                 ROYAL OAK, M I CH I GAN 48067
             JESSE ADAM MARKOS                                                                500 GR I SWOLD STREET
             REBECCA A. ROBICHAUD                      TELEPHONE (.248) 544·0888                   SUIT£ 2400
             REESA N . HANDELSMAN                       FACS I MILE (248) 544-3111           DETRO I T , MICHIGAN 48226
             MICHAEL D. BOSS E N B ROEK
             JESS I CA C. FORSTER
                                                                                                 www. wachler.com
             * ALSO ADMITT ED IN OHIO                                                           www.racattorneys.com



              Sent Via Email to: James.Edert@oig.HHS.gov & Brenda.Tierney@oig.hhs.gov and
              Sent Via Federal Express Tracking No. ~qq± o35j 5' 3SCj


                                                     March 14, 20 13

              James Edert
              Regional Inspector General for Audit Services
              Jacob K. Javits Federal Building
              26 Federal Plaza, Room 3900
              New York, NY 10278

                        Re: 	      Spectrum Rehabilitation, LLC
                                   OIG Audit (Report Number A-02-11-01044)

              Dear Mr. Edei1:

              Please be advised that Wachler & Associates, PC has been retained to represent Spectrum
              Rehabilitation, LLC ("Spectrum") in the Office of Inspector General ("OIG") Audit
              Repol1 No. A-02- 11 -01044.

              The overpayment demand in this case would put Spectrum out of business. Spectrum
              strongly urges the OIG to consider the information included below and, for resolution
              purposes, allow Spectrum to move forward with a focus towards investing its resources in
              compliance activities. Overall , the issues raised in the OTG audit were documentation
              issues, and were not questions of whether the services provided were medically
              necessary. After the OIG's review of the Spectrwn' s comments, the provider would
              appreciate an opportun ity to further discuss this matter with the OJG in order to reach a
              resolution that wou ld allow Spectrum to stay in business and demonstrate their
              prospective compliance.




Spectrum R ehabilitation M edicare Outpa tie nt Th e rapy Serv ices (A -02 -11 -01 044)                                   15
            We received the December 12, 2012 draft audit report entitled "Spectrum Rehabilitation,
            LLC, Claimed Unallowable Medicare Part B Reimbursement tor Outpatient Therapy
            Services." In the report the OIG recommended Spectrum do the followi ng:

               (l) refund $3 ,253,022.00 to the Federal Goverrunent;
               (2) strengthen its policies and procedures to ensure outpatient therapy services are
                   provided and documented in accordance with Medicare requirements; and
               (3) obtain a better understanding of Medicare reimbursement re{Juirements related to
                   outpatient therapy services. These recommendations were based on six core
                   findings, to which Spectrum provides detailed responses below

            Pursuant to the request to provide a statement of concurrence or nonconcurrence to each
            recommendation we provide the following information:

                             Spectrum does not concur with recommendation #1

            Spectrum provides outpatient rehabilitation services to patients in New Jersey. The audit
            at issue covers services provided from January 2009 through December 20 I 0. In the
            audit findings, the OIG reviewed I 00 sample claims and alleges that 86 of the 100 sample
            claims were improperly reimbursed by Medicare. According to the audit, the claims
            were deficient for at least one ofsix reasons: (1) physician certification allegedly was not
            met; (2) the therapist who billed allegedly did not provide the services; (3) the treatment
            notes allegedly did not meet Medicare requirements; (4) the therapy services allegedly
            were not medically necessary; (5) the plan of care allegedly did not meet Medicare
            requirements; and/or (6) the plan of care allegedly did not exist. The findings were then
            applied to all claims provided between January 2009 and December 2010. As will be
            demonstrated below, these claims were appropriately billed and paid by Medicare.

               I. 	    SPECTRUM PROVIDED APPROPRIATE PHYSICIAN 

                       CERTIFICATION AS PART OF THE MEDICAL RECORDS. 


            The OIG draft report alleges that, for 45 claims, Spectrum did not meet Medicare
            physician certification re{Juirements. Specifically, for 31 claims, the OIG alleges the
            physician or non-physician practitioner "must certify the initial plan as soon as it is
            obtained or within 30 days of the initial treatment" and that in this case, that did not
            occur. Furthennore, the auditor alleges that for two claims there was no certification
            within 90 days of the initial treatment under that plan.

            However, the assertion that the certification "must" be obtained within 30 days is
            misguided, and the auditor failed to acknowledge that pursuant to the regulations, "[u)o


                                                         2




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                               16
            specific procedures or forms are required for certification and recertification
            statements ....The certification and recertification statements may be entered on forms,
            notes, or records that the appropriate individual signs, o1· on a sp ecial sepat·atc form." 1
            CMS specifically allows for what is called "delayed certification" based on the premise
            that "(fit is not intended that needed therapy be stopped or denied when certification is
            delayed."2 Most notably, the Medicare Benefit Provider Manual specifically directs that
            "the delayed certification of otherwise covered services should be accepted unless th~
            contractor has reason to believe that there was no physician involved in the patient's care,
            or treatment did not meet the patient's need (and therefore, the certification was signed
            inappropriately)."3 (emphasis added) .        Finally, the Manual states, " [e]vid encc of
            diligen ce in providing the plan to the physician may be considered by the Medicare
            contractor during review in the event ofa delayed certification."4 (emphasis added).

            Furthermore, in the Medicare Benefit Policy Manual, under the definitions for outpatient
            physical therapy services, it states regarding "dates":

                     A DATE may be in any form (written, stamped or electronic). Tbe da te may b e
                     added to the record in an y manner and at any time, as long as the dates arc
                     a ccurate. If they are different, refer to both the date a service was performed and
                     the date the entry to the record was made.. . .(f]f the physician faxes the referral,
                     certification, or re-certification and forgets to date it, the date that prints out on the
                     fax is valid. If services provided on one date are documented on another date,
                     both dates should be documented. 5 (emphasis added).

            In regards to the acceptance of delayed certification, 42 CFR 424.1 I(3)(D) provides :

                     Delayed certification and recerti-fication statements are acceptable when there is a
                     legitimate reaso n for delay .... Delayed ce1iification and rece1tification statements
                     must include an explanation of the reason for the delay.

            The Medicare Benefit Provider Manual provides furthe r guidance related to delayed
            certification by explaining that, "[s] ince delayed certification is allowed, the date the
            certification is signed is important only to determine if it is timely or delayed." 6 In one of
            the examples provided, CMS explains delayed ce1tification as follows:

                     Payment should not be denied, even wh en certit1ed 2 years after tr eatmen t,
                     when there is evidence that a physician approved needed treatment, such as an

            I 42 CFR 424.J I(b) 

            2
              Med icare Benefit Policy Manual, Chapter 15, Section 220.1.3(0). 

            3 /d.
            4
              Medicare Benefit Policy Manual, Chapter 15, Section 220. 1.3(8).
            5
              Medicare Benefit Policy Manual, Chapter 15, Section 220(A).
            6
              Medicare Benefit Policy Manual, Chapter 15, Section 220. 1.3(A).

                                                                3




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                                     17
                       order, documentation of therapist/physician/NPP discussion of the plan, chart
                       notes, meeting notes, requests for cettification, cettifications for intervals before
                       or after the service in question, or physician/NPP services during which the
                       medical reco rd or the patient's history would, in good practice, be reviewed and
                       would indicate therapy treatment is in progress." 7 (emphasis added)

            Finally, regarding the acceptance ofdelayed certification, CMS states:

                       ... (d] elayed certifications should include any evidence the provider or supplier
                       considers necessary to j ustify the delay. For example, a certification may be
                       delayed because the physician did not sign it, or the original was lost. ln the
                       case of a long delayed certification (over 6 months), the provider or supplier may
                       choose to submit with the delayed certification some other documentation (e.g.,
                       an order, progress notes, telephone contact, requests for certification or sign ed
                       st·atcmcnt of a physician/NPP) indicating need for care and that the patient was
                       under the care of a physician at the time of the treatment. Such docwnentation
                       may be requested by the contractor for delayed certifications if it is required for
                       review. 8

            As it pertains to Spectrum, each and every claim at issue received physician ce1tification.
            For 33 claims, the OIG alleges that certification or recertification was not timely
            obtained. CMS specifically lists "requests for certification" as an example of evidence to
            show delayed certification. In addition, the Medicare Benefit Policy Manual does not
            require certification to be obtained on any specific form, and allows for certification to be
            entered on a special form. It is the practice of Spectrum to provide a completed plan of
            care to the referring physician. When sending the plan of care, Spectrum also sends a
            form entitled "Certification and Recertification Evaluation and Treatment Prescription"
            ("certification form"), which provides a detailed treatment plan for the patient. As
            established by Medicare manual provisions, the physician's dated signature on either of
            these forms would meet the certification requirements .

            Spectnun utilizes an aggressive process for obtaining physician certification, as
            evidenced by the affidavit of Spectrum's Administrator, attached hereto as Exhib it A.
            The Administrator receives the plan of care from a therapist within 24 hours of the
            evaluation of the patient and promptly faxes the certification form and plan of care to the
            ordering physician, If this is not returned within five days, the Administrator faxes a
            second written request. If the plan of care is still not returned within ten business days of
            the otiginal fax, the certification form and plan of care is refaxed a third time to the
            physician. If after 15 days it is not signed, then a Spectmm staff member or the physical
            therapist will hand deliver the phm of care and request a signature, if possible, and if not

            7
                Medic~rc Benefit Policy Manual, Chapter I 5, Section 220. 1.3(0).
            8   Jd.

                                                                   4




Office of Inspector General Note-The exhibits have been redacted because they contain
personally identifiable infmmation.



Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                   18
            possible, it will be faxed for a fourth time. If the plm1 of care is not signed within 30 days
            then it is again faxed with the statement, "Medicare requires your signature within 30
            days of initiation of this POC. If you do not wish to ce1tify this poe or do not feel these
            services are medically necessary, please contact [Spectrum's owner) at [phone number]."

            In addition, Spectrum has obtained physician statements, attached hereto as Exhibits Bl­
            B27, evidencing that the physician was involved in the patient's care at the time of the
            physical therapy services, and was aware of and agreed to the services being provided. 9
            The physician statements also makes clear that any delay is not on the part of Spectrum,
            and in fact Spectrum diligently follo ws up on the certification forms. Fwthermore, for
            the 11 claims alleged by the OlG to contain only a physician signature but not a date on
            the certifications, the physician statement supports that the physician approved the
            patient's plan of care despite the physician's failure to date the plan of care.

            Clearly, Spectrum is extreme ly diligent in attempting to obtain the physician's signature
            within the 30 day timeframe, but when Spectrum was not able to meet this requirement,
            the provider has demonstrated that a reasonably delayed certification exists. As noted in
            the Medicare Manual, "the delayed certification of otherwise covered services should be
            accepted unless the contractor has reason to believe that there was no physician involved
            in the patient's care, or treatment did not meet the patient' s need (and therefore, the
            certification was signed inappropriately)", neither of which exists here. 10

            Attached h er eto as Exhibit C is a claim by claim an alysis of the 45 sample claims
            which were denied due to certification issues.

            II.        SERVICES BILLED UNDER INCORRECT PROVTI>ER NUMBER
                       SHOULD STILL BE PAYABLE.

            The OIG also alleges that for 44 claims Spectrum received Medicare reimbursement for
            therapy services that did not include the provider identification number of the therapist
            who petformed or supervised the services. Specifically, the OlG alleges that for 35 of
            these claims the services were provided by therapists that were not enrolled in Medicare
            and who did not have provider identification numbers, and the services perfonned by
            these therapists were billed using provider identification numbers assigned to other
            therapists at Spectntm. For the remaining n ine claims, the OIG alleges that the therapist
            who performed the service had a provider identification nw11ber, but the identification
            number on the claim was not the number assigned to the therapist who performed or
            supervised the service.

            9
                Exh ibit B corresponds to the comments put f011h in Ex.hi bit C.
            10
                 Medicare Benefit Policy Manual, C hapter 15, Section 220.1.3(0).

                                                                  5




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                 19
                 A. 	 For 9 sample claims, Sp ectrum's s ubmission of claims under the incor rect
                      provider number sh ould be viewed as a clerical error.

            There were 9 claims in which the therapist who provided the service was enrolled in
            Medicare and had a provider identification number. However, due to a clerical error,
            these claims were billed under another therapist's provider identification number by an
            independent third party biller.

            Medicare recognizes that clerical errors occur, including incorrect data items such as the
            provider number, and that such errors should be reopened. TI1e Code of Federal
            Regulations specifically states that "a contractor must process clerical errors... as
            reopenings..." 11 Clerical error is defined to include, "human or mechanical errors <m the
            part of the pru1y or the contractor such as- (i) Mathematical or computational mistakes;
            (ii) Inaccurate data entry; or (3) Denials ofclaims as duplicatcs." 12

            Regarding clerical errors, U1e Medicare C laims Processjng Manual provides:

                     We believe it is neither cost efficient nor necessary for contractors to correct
                     clerical errors through the appeal process. Thus, Section 405.927 and Section
                     405.980(a)(3) require that clerical errors be processed as reopening rather than
                     appeals. CMS defines clerical errors (including minor errors or omissions) as
                     human or mechanical errors on the part of the party or the contractor, such as:

                          •	  Mathematical or computational mistakes;
                          •	  Transposed procedure or diagnostic codes;
                          •	  Inaccurate data entry;
                          •	  Misapplication ofa fee schedule;
                          •	  Computer errors; or
                          •	  Denial of claims as duplicates which the party believes were incorrectly
                              identified as a duplicate.
                          • 	 Incorrect data items, s uch as provider number, usc of a modifier or
                              date of scrvicc. 13 (emphasis added).

            The following list contains the 9 sample claims at issue here and the therapist who
            performed the services for each beneficiary: 14




            "42 CFR 405.980(a)(3).
            12/d. 

            13
               Medicare Claims Processing Manual, Chapter 34, Section 10.4. 

            14
               Refer to Exhi hit () for a list containing the ther~pist's full name. 


                                                                     6




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                            20
                                      Sample#           Providing PT
                                         5                   J. B.
                                         10                  J.B.
                                         26                  J.B.
                                         30                  P.S.
                                         40                  J.B.
                                         45                  P.S.
                                         65                  J.B.
                                         95                  J.B.
                                         98                  P.S.


            J.B. and P.S . have been enrolled in Medicare with provider identification numbers since
            2003. Therefore, the OIG ' s allegations regarding these 9 claims should be viewed as a
            clerical error, and it should not be required that reimbursement for these claims be
            refunded.

                B. 	 For two claims, the ther·apist obtained a Medicare provider· ide ntification
                     number with a r etroactive effective date that preceded the dates of service at
                     issu e.

            Spectrum should be given credit for those claims where the individual physical therapist
            did in fact have an effective provider identification number during the date of service.
            For these claims, the physical therapists who provided the service had not, at the time of
            perfom1ing the service, received their acknowledgement from CMS that their Medicare
            enrollment application had been approved. (t was not until months alter the therapists
            performed the services on the dates at issue that the therapist~ were informed of their
            approved enrollment status and granted a Meclicare identification number. Importantly,
            the therapists' Meclicare identification numbers had effective enrollment dates that
            preceded the dates of service at issue. Therefore, the therapists did not require the
            supervision of another therapist in order for the setvices at issue to be billed to Medicare.
            These claims are attached hereto as Exhibit ·E with detailed information regarding the
            dates of service and the dates of the physical therapists' enrollment in the Meclicare
            program.

               C. 	 For three claims, th e services provided met the Medicare supervision
                   TC(JUirements.

            For Sample #74, the services performed by therapist on April 12, 2010 met the
            supervision requirements in accordance with Medicare Benefit Policy Manual, Chapter
            15, Section 230.4(B). As demonstrated in the attached affidavits, attached hereto as
            Exhibit F , the services were performed by the physical therapist while a therapist

                                                         7




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                                21
            emolled in the Medicare program was present in the same office suite, therefore meeting
            the direct supervision requirement.

            For Samples #21 and #94, the services were performed by an occupational therapist on
            February 18, 2009 and January 16, 2010, respectively. The procedure codes performed
            <m these dates of service met the supervision requirements in accordance with Medicare
            Benefit Policy Manual, Chapter I 5, Section 230.4(8). As demonstrated in the attached
            affidavits, attached hereto as Exhibit G, the services were performed by the occupational
            therapist at an assisted living facility while an occupational therapist enrolled i11 the
            Medicare program was also present at the facility, therefore meeting the direct
            supervision requirement.

            In addition, Spectrum believes that Sample #67 involves a scenario identical to that just
            described. However, after the audit took place, Spectrum has been unable to locate the
            relevant portion ofthe record needed to defend the claim for Sample #67.

               D. 	Each phys ical therapist at Sp ectrum is now cu r r ently enrolled in the
                   Medicare program with effective provider identification numbers.

            Despite having not been emolled in Medicare on the dates of service, each physical
            therapist met the Medicare requirements for being a qualified physical therapist. As
            required by 42 C.F.R. §484.4, each physical therapist in question was licensed to practice
            physical therapy by the state of New Jersey and graduated after successfi1l completion of
            an approved physical therapy program. In addition to meeting the definition of a
            qualified therapist, no therapist would have been otherwise excluded fi·om the Medicare
            program as defined by Section 1128 ofthe Social Security Act.

            Today, with the exception of two therapists who are no longer employed by Spectrum,
            every physical therapist at Spectrum who provided services during the audit period is
            currently emolled in Medicare and has an effective provider identification number. The
            supporting affidavits, attached hereto as Exhibit H, provide the OIG with the emollment
            application dates, effective enrollment dates and current provider identification numbers
            for the physical therapists at issue in the audit.

            Although Spectrum concedes that the therapists for the sample claims at issue under this
            section did not possess Medicare provider identification numbers during the audited time
            period, Spectnun requests the OIG to accept that each therapist met the requirements for
            enrollment, subsequently enrolled in Medicare, and obtained and continue to have an
            active provider identi ·fication number. Denial of reimbursement in this matter, which to
            date has been resolved, would create an unduly harsh impact on the provider. For


                                                        8




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                             22
             purposes of resolution, Spectrum requests that these claims be given credit because the
             physical therapists at issue were qualified, not excluded and ultimately credentialed in the
             Medicare program. Further, we would ask the OIG to consider Spectrum's remedial
             actions ofenrolling each therapist in the Medicare program.

                 E. 	 For two claims, the therapists who provided the services qualified for
                      Medicare enrollment but arc no longer employed by Spect..um.

             Two claims, Sample #12 and Sample #63, involved services provided by physical
             therapists not currently employed by Spectrum. Similar to the section above, and
             supported by affidavits of the therapists, attached hereto as Exhibit I, the therapists for
             these two claims met the Medicare requirements of a qualified physical therapist and
             were not otherwise eKcluded from Medicare during the audited time frame. However,
             these therapists left their positions at Spectrum prior to initiating the Medicare enrollment
             process. Moreover, the neither of the two therapists ever became an enrolled Medicare
             provider because their subsequent employers do not require enrollment. Therefore, as
             with the claims in the above section, Spectrum requests that reimbursement not be denied
             for the two claims at issue here.

            lll. 	   TREATMENT NOTES SOPPORT MEDICARE REIMBURSEMENT

           The OIG alleges that for 37 claims Spectrum received Medicare reimbursement for
           services for which the treatment note did not meet Medicare requirements. Specifically,
           the OIG alleges: the total treatment time in minutes for times procedures was not
           document in the treatment note (31 claims); there was no treatment note for some services
           (3 claims); U1e treatment note did not suppott the number ofunits billed for some services
           (3 claims); and the treatment note did not include the signature or the professional identity
           of the therapist who performed the service (1 claim).

                     A. OI G aJlcgcs tot:a l treatment t ime in minutes was not documen ted

                        i. 	    At a minim u m, each claim billed by Spectrum should b e
                                n:imhursed for one unit

           For 31 claims, the OJG alleges that the total treatment time in minutes for timed
           procedures was not docwnented in the treatment note.

            Regarding treatment note documentation, Medicare Benefit Policy Manual states, " the
           format shall not be dictated by contractors ami may Vllry depending on the practice of



                                                          9




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                                23
           tlze responsible clinician and/or th e cli11ical setting." 15 (emphasis added). The Manual
           also states that " the purpose of these notes is simply to create a record of all treatments
           and skilled interventions that are provided and to record the time of the services in order to
           justifY the use ofbilling codes on the claim." 16

           The Manual also confirms that, "the billing and the total time code treatment minutes must
           be consistent." 17 Based on this, Spectrum, consistent with the biUings, recorded their
           treatment time in tl1e san1e units which equal minutes as found in the Medicare Claims
           Processing Manual, Chapter 5, Section 20.2, where one unit is 8 to 22 minutes.

           Despite the total treatment time in minutes not being documented in the treatment note for
           each claim, it should be recognized that, out of the 100 sample claims reviewed, there was
           not a single disal lowance by the OIG where Spectrum was found to have billed more units
           than were supported by the documented treatment minutes. This clearly demonstrates
           Spectrum's understanding of the rules for billing units based treatment minutes. Although
           Spectrum contends that the number of units billed for the services in question were
           consistent with the time spent performing each modality, Spectrum understands that
           documenting the total treatment time in minutes is an important piece of information for
           verifying the number of units billed for each claim. As will be explained in greater detail
           under recommendation #2, Spectrum has made a number of key changes to its policy for
           treatment note documentation and has provided additional training and education to its
           therapists to ensure the total treatment time in minutes is properly and consistently
           recorded.

           T he num ber of units billed for each claim was calculated in accordance with the treatment
           mi nute guidelines establ ished in CMS manuals. Therefore, Spectmm contends that the
           claims at issue were properly reimbursed. However, at minimum, Spectrum requests that
           the OIG credit Spectmm with one unit for each claim at issue. As demonstrated by the
           signed statement of Spectrum's owner, attached hereto as E xhibit J , it is the practice of
           Spectmm to never bill for any modality performed for less than 8 minutes. Since one unit
           is to be billed for a service rendered between 8 and 22 minutes, each claim at issue
           wanants credit for at least one unit because Spectrum does not bill any procedure code
           that has not been performed for at least 8 minutes.

                           ii. 	    St>ectrum should be reimbursed for claims billed for two and three
                                    units



            I$   Medicare Bcnetit Policy Manual, Chapter 15, Section220.3E, 

            16 /d. 

            17 Jd.


                                                                10




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                               24
           As evidenced by Exhibit J, Spectrum also clearly understands the treatment minute
           requirements for billing two and three units for a service provided on a particular date of
           service. This is further evidenced by the auditor not finding any discrepancies between
           the number of units and total treatment time in minutes recorded in the treatment notes.
           Therefore, Spectrum was properly reimbursed for the services provided for two and three
           units.

                   .B. OIG alleges no treatment note

            For three claims, the OIG alleges that there was no treatment note for some services. The
            services at issue include: (1) two units of97530 for Sample #63 on May 18, 2010; (2) one
            unit of 97124 for Sample #67 on July 1, 2009; and (3) one unit of 97530 for Sample #83
            on August 5, 2009.

            In regards to Sample #63, the two units of 97530 billed on May 18, 2010 were due to a
            billing error. The treatment notes clearly document that the only procedure codes
            performed on this date of service were 15 minutes of 97112 and 15 minutes of 97110.
            The total daily treatment time in minutes and total daily units correctly reflect this
            recording; total daily treatment time was listed as 30 minutes and total daily units were
            listed as 2 units. The treatment notes make no record of procedure code 97530 being
            billed and, therefore, the billing company e1Ted by not billing in accordance with the
            treatment notes, which is the practice ofthe independent billing company.

            Similar to Sample #63 above, the one unit of 97530 billed on Augu&'1 5, 2010 for Sample
            #83 was due to a billing error. The treatment note clearly documents that the only
            procedure codes performed on this date of service were 15 minutes of 97116 and 30
            minutes of 97110. The total daily treatment time in minutes and total daily units
            correctly reflect this recordi ng; total daily treatment time was listed as 45 minutes and
            total daily units were listed as 3 units. The treatment notes make no record of procedure
            code 97530 being billed. Therefore, Sample #83 was also a claim in which the billing
            company erred by not billing in accordance with the treatment notes.

            As for Sample #67, the relevant portions of the medical record needed in order to defend
            the allegations for this claim have been unable to be located since the audit took place.

                   C. OJG alleges treatment note did not support the number of units billed

            The OIG alleges that, .for three claims, the treatment note did not support the number of
            units billed for some services. The three claims at issue here are Sample #12, Sample
            #38 and Sample #81.


                                                       11




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                            25
            For Sample /112, the OIG alleges that the treatment note only supports one of the two
            units billed for procedure code 97110 on May 14,2009. The treatment note for this date
            of service clearly shows that the physical therapist documented only one wilt of 97110.
            Furthermore, the total treatment time and total units performed on May 14, 2009
            corre.ctly com;spond with the single unit of971 I 0 being perfonned, as documented in the
            treatment note. Therefore, billing an additional unit of 97110 was an error by the billing
            company because the billing company failed to bill what was recorded on the treatment
            note, which is practice of the independent billing company.

            The OIG alleges that, for Sample #38, the treatment note only supports one of two units
            billed for procedure code 97530 on November 22, 2010. The treatment note for this date
            of services shows that the therapist performed 15 minutes of 97530 and 25 minutes of
            97001. The treatment note also documents total daily treatment time in minutes as 40
            and total daily units as 3. These totals correctly reflect the intention of Spectrw11 to bill
            two units of 97001 and only one unit of 97530.

            Sample #81 was also the result of a billing en-or by the billing company. The OIG
            alleges that the treatment note only supports one of two units billed for procedure code
            97110 on April 6, 2010. The treatment note for this date of services shows that the
            therapist performed 15 minutes of 97110 and 23 minutes of 97530. The treatment note
            also documents total daily treatment time in minutes as 38 and total daily units as 3.
            These totals correctly reflect the intention of Spectrum to bill two units of97530 and cmly
            one unit of97110.

                   D. OIG alleges treatment note did not contain PT's signature.

            Tllis allegation pertains to the treatment note for Sample #46 on the September 28, 2009
            date of service. The physical therapist that performed the service on this date was also
            the physical therapist who established the plan of care and who performed therapy
            services for the beneficiary on each date of service covered under the plan of care. The
            medical record for Sample #46 demonstrates that the physical therapist signed each and
            every other treatment note for dates of service under the plan of care time frame.
            However, on September 28, 2009, the physical therapist simply forgot to sign the
            treatment note. The signed statement of the physical therapist, attached hereto as Exhibit
            K, establishes that the therapist performed the services on the date in question. This
            human error should not prevent reimbursement for the services provided.

           JV.     SPECTRUM PROVIDED MEDICALLY NECESSARY SERVICES




                                                         12




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                               26
           In the draft audit, the auditor aUeges that, for 21 claims, Spectrum received reimbursement
           for services that exceeded the therapy caps and that the medical record did not support the
           medical necessity above the therapy caps. However, as evidenced in the medical records
           and attested to by the attached expe1t reports, each of these claims did meet Medicare
           medical necessity requirements.

            Section 220.3 of the Medicare Benefits Provider Manual, Chapter 15, states that:

                    Contractors shall consider the entire record when reviewing claims
                    for medical necessity so that the absence of an individual item of
                    documentation does not negate the medical necessity of a service
                    when the documentation as a whole indicates the service is
                    necessary. Services are medically necessary if the documentation
                    indicates they meet the requirements for medical necessity
                    including that they are skilled, rehabilitative services, provided by
                    clinicians (or qualified professionals when appropriate) with the
                    approval of a physician/NPP, sate, and effective (i.e., progress
                    indicates that the care is effective in rehabilitation offunction).

            Section 10.3(a) ofthe Medicare Benefit Policy Manual, Chapter 5, explains that,

                    The beneficiary may qualify for use of the cap exceptions at any time during the
                    episode when documented medically necessary services exceed caps. All covered
                    and medically necessary services qualify for exceptions to caps. All requests for
                    exception are in the form of a KX modifier added to claim lines.

            In this case, the auditor denied the claims alleging only that the medical record did not
            support the medical necessity of services above the cap. As will be explained in greater
            detail in the expert reports for each claim at issue, attached hereto as Exhibit L, the
            medical records provided to the auditor met the Medicare guidelines for medical
            necessity. The services provided were reasonable and necessary for the diagnosis and
            treatment of impairments, functional limitations, disabilities or changes in the physical
            function or health status of the beneficiary. The condition of the patient and the
            complexity of treatment carried out required services that could have only been safely
            and effectively performed by a therapist. The services in question could not have been
            safely carried out by nonskilled personnel. There was an expectation that each patient's
            condition would improve significantly within a reasonable period of time, and the
            amount, frequency and duration of the services provided were reasonable for meeting
            such expectations. The medically necessary services qualified for exceptions to the
            therapy caps, and each claim was billed utilizing the KX modifier. The patients'
            conditions were justified by the medical record documentation, which demonstrated each
            patient' s need for continued skilled therapy beyond the therapy cap in order to achieve

                                                         13




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                            27
            their prior functional status or maximum expected functional status within a reasonable
            time and, in fact, each patient at issue achieved such status.

           V.          THE PLANS OF CARE MET MEDICARE REQUIREMI<:.:NTS

           The OIG denied five claims alleging that the services were not provided Ln accordance
           with a plan that met Medicare requirement.<;. Specifically, for four claims, the OIG alleged
           that the plan did not include the lylJe of service provided and billed to Medicare, and for
           one claim, the date the plan was established was never recorded.

           For the four claims in which the OlG alleged the plan did not include the type of service
           provided and billed to Medicare, I<:.:xbibit M puts forth the specific reasoning as to why the
           services were billed in accordance with the plan. However, the relevant portions of the
           medical record needed in order to defend the allegatiOilS for Sample #67 have been unable
           to be located since the audit took place.

           For the one claim in which the plan of care was alleged to not include an establishment
           date, the plan of care in question was established on April 17, 2009 for Sample #3. lt is
           the practice of Spectn1m to establish the plan of care the same day as the therapist
           pe1forms the initial evaluation (i.e., the plan of care establishment date is also the start of
           care date). The plan of care in question includes the start of care date as April 17, 2009.
           In addition the treatment notes demonstrate that the therapist performed the initial
           evaluation on April 17, 2009, and the progress notes for April 17, 2009 specitically reter
           the reader to the initial assessment contained in the plan of care in great detail. The
           Medicare Benefit Policy Manual states, " (t]he date may be added to the record in any
           manner and at any time, as long as the dates are accurate." 18 Here, the start of care date
           contained on the plan of care should be accepted as the date the plan of care was
           established. This minor oversight on the part of the therapist in only documenting the start
           of care date and failing to record the date the plan of care was established is evidenced by
           the physical therapist affidavit, attached hereto as Exhibit N.

           VI .        PLANS OF CARE WERE INCLUDED IN THI<:.: MEDICAL RECORI>S

           For two claims, the OIG alleges that the medical records did not include a plan of care.
           The two sample claims in question do in fact have a plan of care, attached hereto as
           Exhibit 0, and therefore the reimbursement should not be denied for these claims.

           Based on the Spectrum's comments under recommendation #1 , and in consideration of
           Spectmm's commitment to compliance, Spectrum requests the OIG to consider a

            18
                 Medicnre Benefit Provider Manual, Chapter 15, Section 220(A).

                                                                14




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                                28
            substantial and meaningful reduction in the recommended refund amount, allowing the
            provider to survive and continue its compliance activities set forth below.

                                 Spectrum concurs with recommendation #2

            Over the past year, Spectnun has made numerous changes and updates to its policies and
            procedures that demonstrate the provider's commitment and dedication of ensuring its
            billing and documentation practices meet Medicare guidelines. Each year, Spectrum
            holds an annual meeting in which mandatory attendance of all Spectrum employees is
            required. Prior to the meeting, each employee is required to sign the meeting sign-in log,
            attached hereto as Exhibit J>. The goal of this meeting is to ensure all Spectrum
            employees are educated and trained on the new and existing standards of proper care and
            biJUng, using CMS manuals as its guide. In addition, prior to the OIG audit, Spectrum
            provided each employ $500 to be used towards continuing education. Today, Spectrum
            mandates that, as part of the employee's education stipend, at least one seminar tile
            employee attends is focused on Medicare documentation requirements and policies. As
            part of its compliance plan, Spectrum has instituted a number of additions to the specific
            compl iance categories alleged by the OTG as not meeting Medicare requirements,
            including the following examples:

              I.   Timely physician certification

            Spectrum fully comprehends the importance of rece•v mg ti mely certification by
            physicians to ensure the established plan of care coincides with the patient's diagnosis
            and treatment needs. In addition to Spectrum's prior practice of persistent attempts to
            receive physician certification within 30 days from the start of care, Spectrum now
            dedicates part of its time and resources to educating its physician/NPP referral sources on
            Medicare certifjcation requirements. Spectrum has come to the realization that taking a
            more proactive approach in helping physicians/NPPs understand the importance of timely
            certification will provide greater cooperation and transparency between Spectrum and its
            physician referral sources in obtaining the necessary certification to ensure patients
            receive the most effective and medically necessary therapy treatment.

             II. 	 Therapist enrollment in the Medicare program and billing under the conect
                   provider identification number

            As explained in Spectrum's response to the OIG's first recommendation, all therapists
            employed by Spectrum during the audit period became enrolled in the Medicare program.
            Today, it is Spectrum 's practice to enrol l aU newly hired therapists in the Medicare
            program, as well as maintain its current staff certification through the revalidation
            process, as required by CMS.


                                                        15




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                             29
            Once the Medicare enrollment application process for new therapists has commenced,
            any and all hiiJing for services performed by that therapist is held until the therapist's
            eiU'ollment has been approved. Thereafter, Spectrum submits the billing for those
            services under the providing therapist's provider identification number. Furthermore, as
            prut of its initiative to follow Medicare billing guidelines, Spectrum's billing company
            has been further instructed to bill each service under the correct provider identification
            nwnber. In addition, when services are provided to a patient by a physical therapist
            assistant (PTA), Spectrum requires the supervising therapist to sign or cosign the
            treatment note for the services pertormed by the PTA on that particular date of service.
            Thereafter, the billing company is to bill the procedure codes performed by the PTA
            under the supervising th.e rapist's provider identification number.

             IU.   T r eatment n ote d ocu men tation

            Spectrum has revised its treatment/progress notes to include sections for documenting
            "time in" and "time out" for the services performed on any given date of service. By
            instituting these new sections into the treatment note, the therapists and billing
            professional can consistently and accurately calculate the total number of minutes spent
            providing therapy services that day, and allow for the proper recording of the total
            treatment time in minutes. Spectrum requires total treatment time in minutes to be
            recorded on the note, which is then used to correctly document the total number of units
            performed on the particular date of service. An example of Spectrum's revised
            treatment/progress note is attached to this response for the OIG's reference (see Exh ib it
            Q). Spectrum has also provided the OIG with its Daily Flow Sheet, attached hereto as
            Exhibit R, which was added to Spectrum's documentation system to provide for a more
            detailed visual of each therapy session. As the OlG will find, the Daily Flow Sheet also
            contains a section for documenting time in/time out to provide the therapist, reviewer and
            biller with the total nwnber of minutes performed for that therapy session.

            Tn regards to billing for services exceeding therapy cap, Spectmm has and will continue
            to educate its therapists on providing sufficient detail to enable the therapist, reviewer and
            Medicare contractors to make an easy determination that the services in question were in
            fact medically necessary. Each therapist will also continue to be instructed as to the
            appropriateness of adding the KX modifier to the applicable claim.

            I V.   T horough review of d ocum entation

            Spectrum has also increased its procedures for reviewing billing documentation prior to
            sending the material to the billing company. Spectrum's billing is sent to the billing
            company every Tuesday. Each and every therapist is required to submit their billing slips
            to Spectrum's owner for final review by Monday morning. T hereafter, Spectrum's owner

                                                         16




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                                30
            conducts a thorough review to ensure that the billing slips contain all required
            information needed to meet CMS guidelines (e.g., total treatment time in minutes,
            therapist signature, etc.).

            Spectrum has also hired a physical therapist to perform chart reviews for proper
            documentation. Upon discharge, the therapist reviews the patient's chart to ensure each
            and every chart meets CMS documentation guidelines. If any discrepancy is found in the
            chart, the reviewing therapist will consult with the documenting therapist to determine
            the accuracy of the i_nformation recorded. If it is determined that the record contains an
            error or omission, an addendum to the record is established. The addendum contains any
            corrections made, along with the dated signature of the therapist who origi nally recorded
            the treatment and/or billing information.

            Finally, Spectrum plans to conduct its billing in-house. During the audit period,
            Spectrum utilized an independent third party biller. Spectrum is certain that this shift in
            billing responsibilities will result in fewer billing errors, and that an accurate billing
            system would be best served by Spectrum's new compliance policies and procedures than
            it would by using the services of its independent billing company.

            As demonstrated above, Spectrum has made, and will continue to make, significant
            improvements to its compliance plan in order for the provider's billing and treatment
            documentation to conform to CMS guidelines. In addition, Spectrum offers to have an
            independent billing ex..pert, approved by the OIG, conduct a quarterly audit of
            Spectrum' s billing and documentation procedures. Once each audit has been
            comt>lcted, Spectrum offers to share these re.s ults with the OIG to ens ure
            Spectrum's practices are in compliance with M edicare reimbursement
            re,tuirements .

                                 Spectrum concurs with recommendation #3

            Since August 2012, Spectrum's owners have attended multiple semjnars m order to
            obtain a better understanding of the Medicare reimbtusement requirements . These
            seminars include:

               I. 	 CMS Guide to Manual Medical .Review ofTherapy Services, August 7, 2012.
               2. 	 Preparingfor Functional Reporting, December 12,20 12
               3. 	 Novifas presents: Medicare Part B Physical and Occupational Therapy Billing,
                   January 28, 2013.




                                                        17




Spectrum Rehabilitation Medicare Outpatient Therapy Services (A-02-11-01044)                              31
             In addition, Spectrum's owners are currently registered for a seminar, entitled
             Documentation for Fimction, presented by Cross Country Education on April 24, 2013.
             Spectrum's owners, therapist and other staff will continue to attend additional provider
             outreach and education seminars to obtain a better understanding of Medicare
             reimbursement requirements. Spectrum will continue to implement the information
             obtained from thest: programs into it5 standards of care and practice to ensure that its
             patients receive the highest quality of care and that all of Spectrum' s billing and
             treatment documentation complies with Medicare reimbursement requirements and
             guidelines.
                                                   Conclusion

            Since 2003, Spectrum has provided quality physical therapy services to a great number of
             patients. In doing so, Spectrum utilizes the skills and experience of ten physical
             therapists, four occupational therapists, one speech therapist and four therapist assistants
            to deliver effective resul ts to patients needing various methods of therapy treatment.
            Such a substantial refund of alleged improper payments, as initially recommended by the
            OIG , would certainly cause Spectrum to go out of business, resulting in numerous
            patients not receiving the quality of care they deserve and have come to expect from their
            physical therapy provider. The allegations contained in this audit center around
            inadequate documentation, rather than the level of care provided by Spectrum.
            Therefore, Spectrum requests that the OIG accept its resolution of efficiently utilizing
            SpectJ.um's resources by putting these resources into compliance. Spectrum has already
            made and will continue to make the necessary ongoing revisions to its compliance plan so
            that its policies and procedures appropriately align with Medicare reimbursement
            guidelines. Finally, Spectrum is offering to work closely with the OIG by implementing
            the above referenced compliance activities and submitting quarterly reviews to the oro
            for the OIG's review and consideration, thereby ensuring Spectrum's billing system
            achieves an acceptable level ofquality and accuracy approved by the OIG.

                                                          Respectfully Submitted,

                                                          WACHLER & ASSOCIATES, P.C.

                                                              f-AY.'1..t~,(J J_ t.~._lLt~uf-2."
                                                          Andrew B. Wachter, Esq.            .


                                                          ~~~
                                                          Kevin R. Miserez, Esq.




                                                         18




Spectrum Rehabilitation Medicare Outpatient Therapy Services (.A-02-11-01044)                               32
